No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

DERRICK E. STEILMAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
contains 4,261 words, excluding the parts of the document that are exempted by the Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
EXECUTED on the 13th day of September, 2

AN ONY R. GALLAGHER
Federal Defender for the District of Montana
*DAVID F. NESS
Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
*Counsel of Petitioner

